                PACIFIC REGIONAL OFFICE
            Limited Audit of Financial and Administrative Controls




                                       INTRODUCTION
The Office of Inspector General (OIG) conducted a limited audit of selected financial and
administrative controls in the Commission's Pacific Regional Office (PRO) in Los Angeles,
California. The audit procedures included interviewing PRO staff, reviewing supporting
documentation, and conducting limited tests of transactions in Fiscal Year (FY) 2005. The
purpose of the audit was to provide the Commission with negative assurance concerning these
controls 1 . We performed our audit in October 2005, in accordance with generally accepted
government auditing standards.


                                        BACKGROUND
The PRO, with approximately 150 full-time staff, carries out the Commission's programs,
subject to Commission oversight, in Alaska, Arizona, California, Guam, Hawaii, Idaho,
Montana, Nevada, Oregon and in the state of Washington. The PRO's administrative officer
and staff perform a broad range of financial and administrative functions, including
purchasing, travel, budgeting, time and attendance.


                                      AUDIT RESULTS
During the limited audit described above, no material weaknesses in the PRO's financial and
administrative controls came to our attention.

We informally discussed a number of non-material findings and recommendations with PRO
management. Management generally concurred with the findings and agreed to implement
the recommendations.




1
    Negative assurance means that no material internal control weaknesses came to our attention during our
     limited audit.



           P AC I F I C R E G I O N AL O F F I C E ( AU D I T N O . 4 1 4 )        F E B R U AR Y 1 4 , 2 0 0 6
